No. 20-472
IN THE

Supreme Court of the United States
HOLLYFRONTIER REFINING & MARKETING LLC, ET AL.,
Petitioners,
v.
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, David M. Lehn, a member of the
bar of this Court, certify that the accompanying Brief for Growth Energy and the
American Farm Bureau Federation as Amici Curiae in Support of Respondents
contains 5,990 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on March 31, 2021.

DAVID M. LEHN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
david.lehn@wilmerhale.com

3

